CERTIFICATION OF BAR MEMBERSHIP
IDENTICAL TEXT, VIRUS CHECK AND WORD COUNT
I, Richard F. Maffett, Jr., Esquire, certify that:
1. I am a member in good standing of the bar of this Court;
2. The text of the electronic format of the Petition For A Writ Of Certiorari
is identical to the hard copy format;
3. A virus check was performed on the Petition For A Writ Of Certiorari,
using Avast Antivirus 21.7.2481 (build 21.6.6446.683), last updated 09/10/21, and
no virus was detected;
4. This Petition For A Writ Of Certiorari contains less than 9000 words.
I make this combined certification under penalty of perjury, pursuant to 28
U.S.C. 1747.
s/Richard F. Maffett, Jr.
Richard F. Maffett, Jr., Esquire
2201 North Second Street
Harrisburg, PA 17110
717-233-4160
Supreme Court Bar #185853
Attorney for Petitioner, Maurice Ross

